No. 20-1453

du the
Supreme Court of the United States

 

 

CAL CARTAGE TRANSPORTATION
EXPRESS, LLC, et al.,

Petitioners,
Vv.

THE PEOPLE OF THE STATE OF
CALIFORNIA, et al.
Respondents.

On Petition For A Writ Of Certiorari
To The California Court of Appeal

BRIEF FOR THE MINNESOTA TRUCKING
ASSOCIATION, AS AMICUS CURIAE
SUPPORTING PETITIONERS

AFFIDAVIT OF SERVICE

Stephen M. West, states that all parties required to be
served have been served and that three true and correct
copies of the Brief for the Minnesota Trucking
Association, as Amicus Curiae Supporting Petitioners
was served on the persons listed below on the 28th day
of May, 2021, by depositing them with the United States
Post Office, with First Class Postage prepaid.
Joshua Seth Lipshutz

GIBSON, DUNN & CRUTCHER LLP
333 South Grand Avenue

Los Angeles, CA 90071

(202) 955-8217

Danielle Luce Goldstein

OFFICE OF THE LOS ANGELES CITY ATTORNEY
200 North Spring Street, 14th Floor

Los Angeles, CA 90012

(213) 978-1868

John R. Bagileo

LAW OFFICE OF JOHN R. BAGILEO
15292 Callaway Court

Glenwood, MD 21738

(301) 404-8382

Stephen M. West

Subscribed and sworn to before me this 28th day of
May, 2021.

Mhrin Llewat

Notary Public

  
 

Notary Public-Minnesota
39” My Commission Expires Jan 31, 2025

SHARIN L. sett
